AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No, 20-
RON FENN,
Petitioner

Vv.

CITY OF TRUTH OR CONSEQUENCES, MICHAEL APODACA, POLICE CHIEF LEE
ALIREZ, and DAINIEL HICKS,

Respondents.
STATE OF NEW MEXICO )
COUNTY OF BERNALILLO )

J, A. Blair Dunn, being duly sworn according to law and being over the age of 18, upon my oath
depose and say that:

Tam counsel of record for Petitioner.
That on the 15" day of June 2021, I served the within Petition for a Writ of Certiorari in
the above-captioned matter upon:

JARMIE & ROGERS, P.C.
Mark D. Standridge

Cody R. Rogers

Po Box 344

Las Cruces, NM 88004

mstandridge@jarmielaw.com
crogers@jarmielaw.com

Attorneys for City of Truth or Consequences,
Lee Alirez, and Michael Apodaca

MONTGOMERY & ANDREWS, P.A.
Michael R. Heitz

Matthew A. Zidovsky

PO Box 2307

Santa Fe, NM 87504-2307
mheitz@montand.com
mzidovsky@montand.com

Attorneys for Daniel Hicks

 

 

 
By depositing one copy of same, addressed to each individual respectively, and enclosed in a
post-paid, properly addressed wrapper, in an official depository maintained by the United States

Postal Service, via regular mail.

That on the same date as above, I sent to this Court one copy of the within Petition for a
Writ of Certiorari and three hundred dollar filing fee check through the United States Postal
Service by regular mail, postage prepaid. In addition, the brief has been submitted through the

Court’s Electronic filing system.
All parties required to be served have been served.

I declare under penalty of perjury that the foregoing is true and correct.

Executed this 15" day of June, 2021

A. Bl funn,

Sworn to and subscribed before me
this 15" day of June, 2021.

Putohe,

OFFICIAL SEAL
: TAMMY PELLETIER
e274) Notary Public State of New Mexico
| _My Commission expires 7</ 3 - 2:

Notary Public

   
   
 

  
   
 

 
